 SIGAR 1
                                                  Special Inspector General for
                                                   Afghanistan Reconstruction




                                                            SIGAR 14-34 Financial Audit



         USAID’s Health Service Support Project:
         Audit of Costs Incurred by Jhpiego
         Corporation




                                                          FEBRUARY
                                                                         2014

SIGAR 14-34 FA / Health Service Support Project
February 25, 2014

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development

This letter transmits the results of our audit of costs incurred by Jhpiego Corporation (Jhpiego) under a
cooperative agreement with the U.S. Agency for International Development (USAID) to implement a Health
Service Support Project (HSSP) in Afghanistan. 1 The audit covered the period July 1, 2006, through October
31, 2012, and was performed by Williams Adley and Company-DC, LLP (Williams Adley). It covered
$60,449,801 in expenditures.

The purpose of HSSP was to improve the quality of health care services provided to Afghan women of
reproductive age and children under the age of five. Specifically, the project aimed to (1) strengthen and
develop systems that support service delivery quality; (2) increase the number and performance of health care
providers, especially for women in rural and under-served areas; (3) improve the capacity and willingness of
communities, families, and individuals to make informed decisions about their health; and (4) increase the
awareness of women’s health needs.

The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of Jhpiego’s Fund Accountability Statement; 2
    •    determine and report on whether Jhpiego has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in Jhpiego’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of its audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Williams
Adley’s audit documentation and results and found them to be in accordance with generally accepted
government auditing standards.
Williams Adley found that the Fund Accountability Statement presented fairly, in all material respects, revenues
received and costs incurred under the cooperative agreement. Williams Adley also determined that Jhpiego did
not take adequate corrective action on four findings identified from prior audits or assessments. In addition,
Williams Adley reported two internal control findings and three instances of noncompliance, which prompted it




1 USAID cooperative agreement number 306-A-00-06-00523-00.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs
incurred, and any remaining balance for a given award during a given period.
to question $301,956 in costs. These questioned costs included $46,025 in ineligible costs 3 and $255,931 in
unsupported costs. 4 See table 1.
Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                 Category                                                       Ineligible               Unsupported
                                                      Total

 Travel                                                         $5,871                                               $5,871

 Supplies                                                        $329                                                  $329

 Contractual                                                $283,572                    $44,385                   $239,187

 Other Costs                                                     $179                                                  $179

 Indirect Charges                                              $12,005                    $1,640                   $10,365

 Totals                                                     $301,956                    $46,025                   $255,931

In addition, the audit found that Jhpiego had not remitted an estimated $10,954 in interest income on funds
drawn from its letter of credit in excess of its immediate cash needs.
Given the results of the audit, SIGAR recommends that USAID’s Mission Director for Afghanistan:

    1. Determine the allowability of and recover, as appropriate, $301,956 in questioned costs ($46,025
       ineligible and $255,931 unsupported) identified in the report.

    2. Recover, as appropriate, the estimated $10,954 in interest income on funds Jhpeigo drew from its
       letter of credit in excess of its immediate cash needs.
    3. Advise Jhpiego to address the two internal control findings identified in the report.

    4. Advise Jhpiego to address the three compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction
(F016)



3 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by USAID to make a final determination regarding allowability.
4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.




                                                           2
SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN
            RECONSTRUCTION


      Incurred Cost Audit of
 Fund Accountability Statement
    JHPIEGO CORPORATION
    Cooperative Agreement:
     306-A-00-06-00523-00
July 1, 2006 to October 31, 2012



                Submitted by


                   WILLIAMS
                   ADLEY
               January 31, 2014
                 Incurred Cost Audit of Jhpiego’s Fund Accountability Statement



Table of Contents
Transmittal Letter ......................................................................................................................................... 1
Summary ....................................................................................................................................................... 2
   Background ............................................................................................................................................... 2
   Work Performed ....................................................................................................................................... 2
   Objectives ................................................................................................................................................. 2
   Scope ......................................................................................................................................................... 3
   Methodology............................................................................................................................................. 4
   Summary of Results .................................................................................................................................. 4
Independent Auditor’s Report on the Fund Accountability Statement ....................................................... 6
Fund Accountability Statement .................................................................................................................... 8
Notes to Fund Accountability Statement...................................................................................................... 9
Notes to the Questioned Amounts Presented on the Fund Accountability Statement ............................. 12
Independent Auditor’s Report on Internal Control .................................................................................... 14
Independent Auditor’s Report on Compliance ........................................................................................... 16
Schedule of Findings and Questioned Amounts ......................................................................................... 18
       Finding 2012-01: Unsupported Disbursements (Material Weakness and Non-Compliance) ............. 18
       Finding 2012-02: Ineligible Costs (Significant Deficiency and Non-Compliance) ................................ 23
       Finding 2012-03: Funds in Excess of Cash Needs (Non-Compliance).................................................. 26
Attachment A – Summary of Prior Audit Findings ...................................................................................... 28
Attachment B – Interest Calculation on Excess Cash.................................................................................. 32
Attachment C – Management Response to Audit Findings ........................................................................ 36
Attachment D – Auditor Response to Management Comments ................................................................ 48




WILLIAMS ADLEY
             Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




Transmittal Letter
January 31, 2014


To the Leadership Team
Jhpiego Corporation
1615 Thames Street
Baltimore, MD 21231

To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, VA 22202

We hereby provide to you our final report, which reflects results from the procedures we completed during
the course of our audit of Jhpiego Corporation’s (Jhpiego) cooperative agreement number 306-A-00-06-
00523-00 with the United States Agency for International Development (USAID) for its health services
support program (HSSP) in Afghanistan.

Within the pages that follow, we provide a brief summary of the work performed. Following the summary,
we incorporated our Report on the Fund Accountability Statement, Report on Internal Control, and Report
on Compliance. We do not express an opinion on the summary and any information preceding our reports.

In December 2013, we provided SIGAR a draft report reflecting upon our audit procedures and results.
Jhpiego received a copy of the report in January 2014 and provided written responses subsequent thereto.
These responses have been considered in the formation of the final report, along with the written and oral
feedback provided by SIGAR, USAID and Jhpiego. Jhpiego’s responses and our corresponding rebuttal are
incorporated into this report following our audit reports.

Thank you for providing us the opportunity to work with you and to conduct the audit of Jhpiego’s HSSP
cooperative agreement.

Sincerely,




Charbet Duckett, CPA, CGFM
Partner



WILLIAMS ADLEY                                                                                           1
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement


Summary
Background
The United States Agency for International Development (USAID) provides funding to
grant recipients for services related to reconstruction activities in Afghanistan. Congress
created the Office of the Special Inspector General for Afghanistan Reconstruction
(SIGAR) to provide independent and objective oversight of Afghanistan reconstruction
projects and activities. Under the authority of Section 1229 of the National Defense
Authorization Act for Fiscal Year 2008 (P.L. 110-181), SIGAR conducts audits and
investigations to: 1) promote efficiency and effectiveness of reconstruction programs
and 2) detect and prevent waste, fraud, and abuse. As a result, USAID funded activities
in Afghanistan fall under the purview of SIGAR in fulfilling its mandate.

USAID awarded $19,141,074 to Jhpiego Corporation (“Jhpiego”) under cooperative
agreement number 306-A-00-06-00523-00 to implement a health service support
project (HSSP) in Afghanistan, effective July 1, 2006. The award and subsequent
modifications, which totaled $62 million, were executed to provide technical assistance
to non-governmental organizations (NGOs) in the provision of quality services, through
October 31, 2012, to women of reproductive age and children under the age of five in
350 Basic Package of Health Services (BPHS) clinics and Essential Package of Hospital
Services (EPHS) hospitals that service 13 USAID-funded provinces in Afghanistan.

Work Performed
Williams Adley and Company-DC, LLP (Williams Adley) was engaged by SIGAR to
conduct a financial related audit of Jhpiego’s HSSP cooperative agreement Special
Purpose Financial Statement (Fund Accountability Statement).

Objectives
The objectives of the audit are to:

   1. Express an opinion on whether the Fund Accountability Statement for the award
      presents fairly, in all material respects, revenues received, costs incurred, items
      procured directly by the U.S. Government and fund balances for the period
      audited in conformity with the terms of the award and generally accepted
      accounting principles or other comprehensive basis of accounting.

   2. Evaluate and obtain a sufficient understanding of Jhpiego’s internal control
      related to the award; assess control risk; and identify and report on significant
      deficiencies including material internal control weaknesses.

   3. Perform tests to determine whether Jhpiego complied, in all material respects,
      with the award requirements and applicable laws and regulations; and identify
      and report on instances of material noncompliance with terms of the award and


WILLIAMS ADLEY                                                                         2
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

      applicable laws and regulations, including potential fraud or abuse that may have
      occurred.

   4. Determine and report on whether Jhpiego has taken adequate corrective action
      to address findings and recommendations from previous engagements that could
      have a material effect on the fund accountability statement.

Scope
The scope of work in performing the engagement services related to the project in
Afghanistan under cooperative agreement 306-A-00-06-00523-00 was to:


   1. Perform a financial audit of incurred costs by Jhpiego under the Service Delivery
      and Quality of Basic Services in Afghanistan: Health Service Support Project
      (HSSP).

   2. Review the Fund Accountability Statement and related Notes to the Fund
      Accountability Statement that are the responsibility of Jhpiego management. We
      reviewed internal controls related to the financial information for the audit
      period, including financial management systems controls and edit checks,
      procedural controls (documentation receipt, validation, reviews, approval levels,
      recordation, reconciliation, separation of duties, signatory requirements, etc.),
      and internal/external audits of project activities and the impact of corrective
      actions, if any.

   3. Perform compliance testing including, but not limited to, activities allowed or
      unallowed; allowable costs/cost principles; cost determination/indirect costs;
      cash management; eligibility; equipment and real property management;
      matching, level of effort and earmarking; period of availability of Federal funds;
      procurement and suspension and debarment; program income; reporting; and
      sub-recipient selection and monitoring.

We looked at transactions for the period from July 1, 2006 through October 31, 2012
and subsequent events and information related to the findings and questioned amounts
for the audit period, and we expressed an opinion on the Fund Accountability Statement
and related Notes for the audit period.

The auditor’s reports are supplemented by four attachments. Attachment A presents the
status of management’s corrective actions on prior audit recommendations provided to
the management and Attachment B shows interest calculations on excess cash.

Attachment C presents management’s official response to the audit report findings.
Attachment D presents the auditor’s response to management’s comments, which is
intended to clarify matters of fact or disagreement between management and the


WILLIAMS ADLEY                                                                       3
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

auditor as required by Government Auditing Standards.

Methodology
To meet the audit objectives, Williams Adley identified the applicable criteria against
which to test the Statement and supporting financial records and documentation
through a review of the cooperative agreement and modifications thereto. This criteria
included OMB circulars; USAID automated directives system guidelines; and
regulations under 22 CFR, Part 226, administrative requirements for managing the
grant funds pursuant to 2 CFR, Part 215, and cost principles for grant funds under 2
CFR, Parts 220 and 230. In addition, Williams Adley reviewed Jhpiego organizational
charts and reporting hierarchy, policies and procedures, and the status of prior audit
report findings to gain an understanding of the normal procedures and system of
internal controls established by Jhpiego to provide reasonable assurance of achieving
reliable financial reporting and compliance with applicable laws and regulations.

Williams Adley used both random and risk-based sampling techniques to select
expenditure, payroll, and asset inventory samples to test for allowability of incurred
costs, and we reviewed procurement records to determine cost reasonableness and
compliance with exclusion of parties not eligible to participate in federal awards. We
requested and received supporting documentation for compliance evaluation of
incurred costs. We reviewed submitted financial status reports for accuracy and
compliance with reporting requirements. Testing of indirect costs was limited to
determining whether indirect costs were calculated and charged to the U.S. Government
in compliance with the negotiated indirect cost rate agreement.

The financial records for the majority of the sub-recipients that provided services under
the cooperative agreement were located in Afghanistan. As a result, transaction testing
in support of sub-recipient costs incurred was performed in that country.

Summary of Results
Williams Adley issued an unqualified opinion on Jhpiego’s Fund Accountability
Statement (Statement). Williams Adley also reported on Jhpiego’s internal controls and
compliance regarding the Statement. Upon completion of our audit procedures,
Williams Adley identified 6 findings, 3 of which were presented in a management letter
as insignificant issues. Of the 3 findings in the report, 1 exception was considered a
material weakness, 1 exception was considered a significant deficiency, and all 3
findings were considered instances of noncompliance. Where internal control and
compliance findings pertained to the same matter, we consolidated them into a single
finding. A total of $312,910 was questioned. The questioned amounts are summarized
in the following table:




WILLIAMS ADLEY                                                                       4
           Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


  bl
   . .
                       f   •           d
                                                       Questioned         Cumu~ative
  Fmdmg Number                     Issue                Amount            Questioned
                                                                           Amounts
 2012-01            Incurred costs that were not            255,931              255,931
                    adequately supported

 2012-02            Incurred costs that were for             46,025              301,956
                    ineligible expenses
 2012-03            Interest on cash drawn down in           10,954             $312,910
                    excess of immediate cash needs


The summary is intended to present an overview of the results of procedures completed
for the purpose described herein and is not intended to be a representation of the audit
results in their entirety.

Williams Adley requested prior audit reports and recommendations provided in order to
determine the impact on our audit, as well as to evaluate the adequacy of the corrective
actions implemented. Out of a total of 19 prior audit findings, Jhpiego took adequate
corrective action on 14 findings. J hpiego did not take adequate corrective action on 4 of
7 prior findings related to unsupported costs, monitori ng sub-awards, and internal audit
coverage that management should address, and which are discussed in this report. See
Attachment A for a status of those prior findings.

Summary ofManagement Comments

In responding to the draft audit report (see Attachment C), Jhpiego management did
not agree with all of the findings and asserted that certain questioned costs should be
removed from the Audit Report. Management believes that adequate support was
provided for the majority of questioned unsupported costs incurred, and cost
reasonableness support and appropriate prior approvals were provided for the ineligible
questioned costs. The auditor responded to management's comments as detailed in
Attachment D to this Audit Report. One change was made to the questioned costs in the
amount of $637 for a transaction that was included in the Schedule of Findings and
Questioned Amount in error. Management did not question the $10,954 in excess
interest.




WILLIAMS ADLEY                                                                         5
~l     f ~ 11 WILLIAMS
ll !    j.   1 ADLEY

       Independent Auditor's Report on the Fund
              Accountability Statement

The Leadership Team
Jhpiego Corporation
Baltimore, Maryland

The Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, Virginia

Report on the Fund Accountability State1nent

We were engaged to audit the Special Purpose Financial Statement (Fund
Accountability Statement or the "Statement") of Jhpiego Corporation's (Jhpiego)
cooperative agreement number 306-A-oo-o6-00523-00, and the related Notes to the
Fund Accountability Statement.

Management's Responsibility for the Fund AccountabilitlJ Statement

Management is responsible for the preparation and fair presentation of the Statement in
accordance with generally accepted accounting principles. Management is also
responsible for the design, implementation, and maintenance of internal control
relevant to the preparation and fair presentation of financial statements that are free
from material misstatement, whether due to fraud or error.

Auditor's Responsibility

Our responsibility is to express an opinion on the Statement based on conducting the
audit in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the Statement is free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts
and disclosures in the Statement. The procedures selected depend on the auditor's
judgment, including the assessment of the risks of material misstatement of the
Statement, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity's preparation and fair presentation of
the Statement in order to design audit procedures that are appropriate in the

                                      WILLI AMS , ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants I Management Consultants
       1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                              www.williamsadley.com

                                                                                                            6
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as
evaluating the overall presentation of the Statement.

We believe that the audit evidence we obtained is sufficient and appropriate to provide a
basis for our unqualified opinion.

In our opinion, the Statement referred to above presents fairly, in all material respects,
the respective revenues received and costs incurred by Jhpiego under cooperative
agreement 306-A-00-06-00523-00 for the period July 1, 2006 through October 31,
2012 in accordance with accounting principles generally accepted in the United States of
America.

Other Matter

This report is intended for the information of Jhpiego, the United States Agency for
International Development and the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions
of 18 U.S.C. 1905 should be considered before any information is released to the public.

Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated
December 24, 2013, on our consideration of Jhpiego’s internal controls and on our tests
of its compliance with certain provisions of laws, regulations, contracts, and other
matters. The purpose of these reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on internal control over financial reporting or on compliance.
These reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering Jhpiego’s internal control over financial reporting
and compliance.




December 24, 2013
Washington, D.C.




WILLIAMS ADLEY                                                                        7
              Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

                                               Jhpiego Corporation
                         Fund Accountability Statement
                         Associate Cooperative Agreement No. 306-A-00-06-00523-00 SSP
                               United States Agency for International Development
                               For the period July 1, 2006 through October 31, 2012


                                                                              Questioned Amounts
                                      Total
                                     Budget             Actual           Ineligible       Unsupported    Notes
 Revenues                                                                                                 4
 Cooperative Agreement        $62,002,455         $60,449,801
 Interest Income                       -0-                 -0-       $    10,954                          A
 Total Revenue                $62,002,455         $60,449,801        $    10,954

 Costs Incurred                                                                                            5
   Salaries, Wages
   and Fringe Benefits            13,058,955       12,437,640
   Travel                          6,266,452           6,090,202                          $     5,871     B
   Equipment                        124,808             138,510
   Supplies                         964,857             906,061                                    329    C
   Contractual                    21,392,204       21,792,588        $    44,385              239,187     D
   Construction                          -0-              -0-
   Other Costs                    13,507,284       12,657,050                                      179    E
 Total Direct Costs               55,314,600       54,022,051             44,385              245,566

 Indirect Charges                  6,687,855           6,427,750            1,640              10,365    B,C,D,E
 Total Costs Incurred         $62,002,455          $60,449,801       $ 46,025             $ 255,931

 Outstanding Fund Balance
 (deficit)                    $          -0-       $         -0-                                           6




The Accompanying Notes to the Fund Accountability Statement are an Integral Part of this Statement




WILLIAMS ADLEY                                                                                             8
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

                           JHPIEGO CORPORATION

       Notes to Fund Accountability Statement
                For the Period July 1, 2006 through October 31, 2012



 1)   Status and Operation

      Jhpiego Corporation (“Jhpiego”) is a non-profit 501c(3) organization
      incorporated in the State of Maryland on April 19, 1974 as an affiliate of Johns
      Hopkins University (JHU), a US-based institution of higher education. For more
      than 40 years, Jhpiego has successfully managed large, multi-year, worldwide
      awards and successfully implemented concurrent, multi-year bilateral projects
      worldwide, working directly at the local and community levels.
      As a JHU affiliate, Jhpiego is governed by JHU financial statements and
      reporting structure. In accordance with Cost Accounting Standards, JHU’s
      financial disclosure statement has been submitted and accepted by its cognizant
      government audit agency, the Department of Health and Human Services,
      Region III office and with whom JHU has a negotiated indirect cost rate
      agreement (NICRA). The independent auditing firm, KPMG LLP, prepares the
      University’s annual financial statements and auditor’s reports.
 2)   Summary of Significant Accounting Policies

      a) Basis of Presentation

         The accompanying Fund Accountability Statement (the “Statement”) includes
         costs incurred under cooperative agreement 306-A-00-06-00523-00
         (“Agreement”) to provide support for health service delivery and quality of
         basic services in Afghanistan (“HSSP”) for the period July 1, 2006 through
         October 31, 2012. Because the Statement presents only a selected portion of
         Jhpiego operations, it is not intended to and does not present the financial
         position or cash flows of Jhpiego. The information in this Statement is
         presented in accordance with requirements specified by Special Inspector
         General for Afghanistan Reconstruction (“SIGAR”) and is specific to the
         aforementioned Agreement. Therefore, some amounts presented in this
         Statement may differ from amounts presented in, or used in the presentation
         of, the basic financial statements.

      b) Basis of Accounting

         The Statement reflects the revenues received and expenses incurred under the
         cooperative agreement issued by USAID, along with any interest income


WILLIAMS ADLEY                                                                    9
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

         generated by maintaining those funds in interest bearing accounts. The
         Statement is not presented in accordance with accounting principles generally
         accepted in the United States of America (GAAP). It has been prepared on the
         cash basis of accounting. Under the cash basis of accounting, revenues are
         recognized when received and expenses are recognized when paid. Further,
         expenditures are recognized following the cost principles contained in Title 2,
         Subpart 220 of the United States Code of Federal Regulations, Cost Principles
         for Educational Institutions, wherein certain types of expenditures are not
         allowable or are limited as to reimbursement.

      c) Currency

         The Fund Accountability Statement is presented in United States Dollars. For
         purposes of preparing the Statement, Jhpiego applies a conversion rate to
         foreign currency transactions for all sub-recipient billings and subcontracts
         wherein the expenses were recorded in Afghanis. The conversion rate is
         adjusted monthly and ranged from 45.035 to 52.4835 Afghanis per U.S.
         Dollar.

      d) Costs Incurred by Budget Category

         The budget categories presented and associated amounts reflect the budget
         line items presented within the approved cooperative agreement and award
         modifications issued by USAID.

 3)   Questioned Amounts

      Questioned amounts are those amounts that are questioned by the auditor
      because of an audit finding: (1) which resulted from a violation or possible
      violation of a provision of law, regulation, contract, grant, cooperative agreement,
      or other agreement or document governing the use of federal funds, including
      funds used to match federal funds; (2) where the costs, at the time of the audit,
      are not supported by adequate documentation; or (3) where the costs incurred
      appear unreasonable and do not reflect the actions a prudent person would take
      in the circumstances. Questioned costs are recommended for exclusion from the
      Statement by the auditor pending a final determination by the USAID
      Contracting Officer.

      There are two categories of questioned costs, ineligible and unsupported.
      Ineligible costs are those costs that the auditor recommended for exclusion from
      the Statement because the auditor determined the costs were not in accordance
      with the terms of the Agreement and applicable laws and regulations based on
      the evidence reviewed. Unsupported costs are those costs for which adequate or
      sufficient documentation necessary for the auditor to determine the allowability
      and accuracy of costs was not provided.


WILLIAMS ADLEY                                                                       10
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

      Questioned costs are detailed within the Schedule of Findings and Questioned
      Amounts that accompanies the Independent Auditor’s Report on Compliance.

 4)   Revenues

      Revenues on the Statement represent the amount of funds that may be
      reimbursed to Jhpiego from USAID for allowable, eligible costs incurred under
      the contract during the period of performance.

 5)   Costs Incurred by Budget Category


      The budget categories presented and associated amounts reflect the budget line
      items presented within the final, USAID-approved budget adopted as a
      component of the nineteenth modification to the Agreement dated December 31,
      2011.


 6)   Fund Balance

      The fund balance presented on the Statement represents the difference between
      revenues earned and costs incurred or charged to the Agreement. An amount less
      than zero dollars indicates that costs have been incurred, but are pending
      additional evaluation before a final determination of allowability and amount of
      revenue earned may be made. An amount greater than zero dollars reflects
      revenues that have been received in excess of the costs incurred on the
      Agreement and awaiting final determination of allowable costs and final amount
      to be refunded to USAID.




WILLIAMS ADLEY                                                                   11
          Incurred Cost Audit of Jhpiego’s Fund Accountability Statement


    Notes to the Questioned Amounts Presented on
          the Fund Accountability Statement1

Note A: Program Income

Finding 2013-03 questions $10,954 in interest income retained by Jhpiego. This amount
represents $12,204 in calculated interest for funds drawn down in excess of immediate
cash needs, less $1,250 in allowable administrative costs ($250 per year for five years)
for those annual periods where excess drawdowns occurred. Interest income on funds
drawn down in excess of immediate cash needs is ineligible income and must be
returned to the United States Treasury.
Note B: Questioned Costs – Travel

Finding 2013-01 questions $5,871 in travel related costs and $1,104 in Jhpiego indirect
costs for 8 transactions that were missing supporting documents or the supporting
documents did not agree with the amount paid. As a result, we questioned the
transactions as unsupported costs.
Note C: Questioned Costs – Supplies

Finding 2013-01 questions $329 for supplies and $62 in related Jhpiego indirect costs
for 1 transaction that was missing supporting documentation. As a result, we questioned
the transaction as unsupported costs.
Note D: Questioned costs – Contractual Costs

Finding 2013-02 questions $44,385 in contractual costs and $1,640 in related Jhpiego
indirect costs for 49 transactions related sub-recipient personnel costs, vehicle rentals,
supplies and other costs for 7 sub-recipients. These costs were questioned because the
costs lacked evidence of required prior approval, the costs could not be verified as
allocable to the project, or evidence of cost reasonableness could not be determined. As
a result, these incurred costs were deemed ineligible.
Finding 2013-01 questions $239,187 in contractual costs and $9,165 in related Jhpiego
indirect costs for 169 transactions related to the procurement of goods and services by
the grant recipient or sub-recipients that were missing adequate source documents or
source documents did not match the invoiced amount. As a result, these incurred costs
were deemed unsupported.




1
 Notes to the Questioned Amounts Presented on the Fund Accountability Statement were developed by
and are the responsibility of the auditor.

WILLIAMS ADLEY                                                                               12
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

Note E: Questioned costs – Other Costs

Finding 2013-01 questions $179 for direct costs and $34 in related Jhpiego indirect
costs for 1 transaction related to other incurred costs. We identified this transaction as
an unsupported cost because documentation to support the Jhpiego
telecommunications expense was missing.




WILLIAMS ADLEY                                                                       13
~l     f ~ 11 WILLIAMS
ll !    j.   1 ADLEY

Independent Auditor's Report on Internal Control

The Leadership Team
Jhpiego Corporation
Baltimore, Maryland

The Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, Virginia

We have audited the Fund Accountability Statement (the "Statement") of Jhpiego
Corporation (Jhpiego) for cooperative agreement number 306-A-oo-o6-00523-00 for
the period July 1, 2006 through October 31, 2012, and have issued our report thereon
dated December 24, 2013.

We conducted our audit in accordance with U.S. Government Auditing Standards issued
by the Comptroller General of the United States. In planning and performing our audit,
we considered the entity's internal control over financial reporting (internal control) as
a basis for designing our auditing procedures for the purpose of expressing our opinion
on the Statement, but not for the purpose of expressing an opinion on the effectiveness
of the entity's internal control over financial reporting. Accordingly, we do not express
an opinion on the effectiveness of the entity's internal control.

Our consideration of internal control was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control
that might be significant deficiencies or material weaknesses and therefore, there can be
no assurance that all deficiencies, significant deficiencies, or material weaknesses have
been identified. However, as described in the accompanying Schedule of Findings and
Questioned Amounts, we identified certain deficiencies in internal control over financial
reporting that we consider to be material weaknesses and other deficiencies that we
consider to be significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the n01mal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of the entity's Statement
will not be prevented, or detected and corrected on a timely basis. We consider the
deficiencies described in the accompanying Schedule of Findings and Questioned
Amounts to be material weaknesses: Finding 2012-01.


                                      WILLI AMS , ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants I Management Consultants
       1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                              www.williamsadley.com

                                                                                                            14
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

A significant deficiency is a deficiency or a combination of deficiencies in internal
control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. We consider the deficiencies described in
the accompanying Schedule of Findings and Questioned Amounts to be significant
deficiencies: Finding 2012-02. Other deficiencies that were not material weaknesses or
significant deficiencies and did not have questioned amounts were addressed in a
separate management letter, which has been shared with SIGAR and Jhpiego
management.

This report is intended solely for the information of Jhpiego, United States Agency for
International Development and the Special Inspector General for Afghanistan
Reconstruction, and is not intended to be and should not be used by anyone other than
these specified parties. Financial information in this report may be privileged. The
restrictions of 18 U.S.C. 1905 should be considered before any information is released to
the public. However, upon release by SIGAR, this report is a matter of public record and
its distribution is not limited.




December 24, 2013
Washington, D.C.




WILLIAMS ADLEY                                                                      15
~l     f ~ 11 WILLIAMS
ll !    j.   1 ADLEY

     Independent Auditor's Report on Compliance

The Leadership Team
Jhpiego Corporation
Baltimore, Maryland

The Office of the Special Inspector General for Afghanistan Reconstruction
Arlington, Virginia

We have audited the Fund Accountability Statement (the "Statement") of Jhpiego
Corporation (Jhpiego) for cooperative agreement number 306-A-oo-o6-00523-00 for
the period July 1, 2006 through October 31, 2012, and have issued our report thereon
dated December 24, 2013.

We conducted our audit in accordance with U.S. Government Auditing Standards issued
by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance about whether the Statement is
free of material misstatement resulting from violations of agreement terms and laws and
regulations that have a direct and material effect on the determination of the Statement
amounts.

Compliance with agreement terms and laws and regulations applicable to Jhpiego is the
responsibility of Jhpiego's management. As part of obtaining reasonable assurance
about whether the fund accountability statement is free of material misstatement, we
performed tests of Jhpiego's compliance with certain provisions of agreement terms and
laws and regulations. However, our objective was not to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion.

Material instances of noncompliance are failures to follow requirements or violations of
agreement terms and laws and regulations that cause us to conclude that the
aggregation of misstatements resulting from those failures or violations is material to
the Statement. The results of our compliance tests disclosed the following material
instances of noncompliance, the effects of which are shown as questioned amounts in
the accompanying Schedule of Findings and Questioned Amounts as: Findings 2012-01,
2012-02, and 2012-03.

We noted one instance of two vehicles reported as stolen during the period audited. We
conclude that fraud occurred as a result of this incident. Both vehicles were insured, the
theft was reported to USAID as required, and reimbursement was made to the project


                                      WILLI AMS , ADLEY & COMPANY-DC, LLP
                            Certified Public Accountants I Management Consultants
       1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                              www.williamsadley.com

                                                                                                            16
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

based on the value of the vehicles. As a result, no further action was necessary to resolve
this issue and there was no material impact on the Schedule.

We considered these material instances of noncompliance in forming our opinion on
whether Jhpiego’s Statement is presented fairly, in all material respects, in accordance
with the terms of the agreements and in conformity with the basis of accounting
described in Note 2 to the fund accountability statement, and this report does not affect
our report on the Schedule dated December 24, 2013.

This report is intended solely for the information of Jhpiego, United States Agency for
International Development and the Special Inspector General for Afghanistan
Reconstruction, and is not intended to be and should not be used by anyone other than
these specified parties. Financial information in this report may be privileged. The
restrictions of 18 U.S.C. 1905 should be considered before any information is released to
the public. However, upon release by SIGAR, this report is a matter of public record and
its distribution is not limited.



December 24, 2013
Washington, D.C.




WILLIAMS ADLEY                                                                        17
                 Incurred Cost Audit of Jhpiego' s Fund Accountability Statement



Schedule of Findings and Questioned Amounts

Finding 2012-01: Unsupported Disburse1nents (Material Weakness and
Non-Compliance)

Condition: Of 233 randomly selected transactions tested that totaled $14,752,724 of
incurred costs from a total population of $60,449,801, or 24% of the total costs incurred
between July 2006 and October 2012, the following exceptions for travel, supplies,
contract costs, and other direct costs were noted:

                 •
                 Grantee or                                                                     Total
             2                                   #of        Questioned         Indirect
    Item #         Sub·          Condition                                           4        Questioned
                                                Errors        cose              Cost
                 Recipient                                                                      Cost
    5, 10,       Jhpiego      Supporting           7               $5,420         $1 ,019            $6,439
    49, 122,                  documents were
    158,                      missing;
    331 ,                     Amounts per the
    369                       supporting
                              documents did
                              not match the
                              amounts paid
    67           Jhpiego      Support that         1                 $451             $85              $536
                              matches the
                              amount paid was
                              missing
    Totals Table 2                                 8               $5,871         $1'104             $6,975


                 •
                 Grantee or                         f            .                .             Total
    Item #         Sub·          Condition       #0         Questioned         Indirect       Questioned
                 Recipient                      Errors        Cost               Cost           Cost
    52           Jhpiego      Supporting           1                 $329             $62              $391
                              documents were
                              missing
    Totals Table 3                                 1                 $329             $62              $391




2
  The item number refers to the sample item of disbursements tested by the auditor using Jhpiego's
summary level transaction record and provides the link between the summary amount per Jhpiego
records and individual transactions that were tested within the summary amount.
3
  Questioned cost includes the direct cost plus the applicable indirect cost applied by the sub-recipient, if
applicable.
4
  Indirect costs as applied by Jhpiego to modified direct costs, which include the first $25,000 of
subcontracts and sub-grants, salaries and wages, fringe benefits, materials, services, supplies and travel.

WILLIAMS ADLEY                                                                                         18
SCHE DULE OF FINDINGS AND QUESTION ED AMOUNTS
             Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


      bl      •
             Grantee or
                           d             1     d
                                                                                         Total
                                                      #of     Questioned    Indirect
    Item#      Sub-              Condition                                             Questioned
                                                     Errors     Cost          Cost
             Recipient 5                                                                 Cost
    359      ACTO          Invoices pre-dated          2          $3, 137      $590        $3,727
                           signed vehicle rental
                           agreement, no price
                           comparison
    359      ACTO          Surveyors contracts         1          $1,782       $156        $1,938
                           and activity reports
                           were not provided
    28,      Aga Khan      Support for computer        3          $1,723          $0       $1,723
    44, 88                 equipment ($600),
                           food supplies/printing
                           ($823), and generator
                           parts ($300) not
                           provided
    354      HNTPO         Approving signatures        5          $4,924          $0       $4,924
                           could not be verified
                           and the stamps were
                           missing for the food
                           charges for the CME
                           students
    402      Ibn Sina      No supporting              16         $28,000          $0      $28,000
                           documents were
                           provided
    6,       Ibn Sina      Supporting documents       12         $14,009       $441       $14,450
    28,                    were not provided for
    44, 88                 staff salaries and rent
                           expenses
    11 ,     IMC           Rental agreement on         8          $8,282       $157        $8,439
    14,                    building not provided;
    15, 53                 vehicle lease
                           agreement info did not
                           match quotes




5
 ACTO is acronym for Afghanistan Center for Training and Development
HNTPO is acronym for HealthNet TPO
IMC is acronym for International Medical Corps
MRCA is acronym for Medical Refresher Courses for Afghans
NAC is acronym for Norwegian Afghanistan Committee
SAF is acronym for Solidarity for Afghan Families
SHOP is acronym for Social and Health Development Program
SC-US is acronym for Save the Children - United States
WVI is acronym for World Vision International

WILLIAMS ADLEY                                                                               19
SCH EDULE OF FINDINGS AND QUESTION ED AMOUNTS
           Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


           Grantee or                                                                  Total
                                                     #of     Questioned   Indirect
 Item#       Sub-              Condition                                             Questioned
                                                    Errors     Cost         Cost
           Recipient 5                                                                 Cost
 11 '      IMC           Supplier invoices not        7          $2,492         $8       $2,500
 88,                     located ($143);
 343                     student list for receipt
                         of cloth not located
                         ($57); fuel invoice
                         missing ($465); food
                         invoice missing
                         ($449); printer/internet
                         invoice not located
                         ($902)
 6, 11 '   Merlin        Supporting documents        51        $118,480    $2,636      $121 '116
 14,                     such as vouchers,
 15,                     invoices, and
                         agreements were
 21 ,
                         missing
 27,
 28,
 44,
 53, 88
 223,      NAC           Supporting documents         7         $15,297    $1, 125      $16,422
 242,                    such as invoices
 267,                    rental agreements,
                         and proof of payment
 307,
                         were missing; Amount
 381                     per the rental
                         agreement did not
                         agree with amount
                         paid
 323       SHOP          Timesheets did not           1          $3,878      $729        $4,607
                         support the level of
                         effort charged
 257,      MRCA          Vehicle lease payment        3            $589       $31          $620
 317,                    increases are not
 356                     supported

 355       SAF           Vehicle rental               2          $7,678    $1,443        $9, 121
                         quotations were not
                         supported
 15        SC- US        Confirmation of rent         5          $9,711      $818       $10,529
                         payments inconsistent
                         with documentation.
                         Cannot verify costs
                         paid.




WILLIAMS ADLEY                                                                              20
SCHE DULE OF FINDINGS AND QUESTION ED AMOUNTS
          Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


          Grantee or                                                                                       Total
                                                          #of         Questioned       Indirect
 Item#      Sub-              Condition                                                                  Questioned
                                                         Errors         Cost             Cost
          Recipient 5                                                                                      Cost
 15,      SC-US         Missing signed                    22              $10,291                 $52       $10,343
 20,                    timesheets to support
 21 ,                   level of effort charged;
                        food expense
 27,
                        invoices/receipts not
 44, 88                 provided; fuel expense
                        not supported
 14,      WVI           Supporting documents              16               $3,823                 $22        $3,845
 15,                    were missing
 20,
 88,
 114,
 178
 27       Jhpiego       Staff medical                      2                 $408                 $77          $485
                        reimbursements were
                        not supported
 28,      Jhpiego       Supporting documents               6               $4,683            $880            $5,563
 66,                    were missing for rental
 88,                    expenses for training,
 189,                   contracted salary,
 289,                   vendor payments, and
 350                    transfer of tax;
                        Interview fee paid was
                        different from the
                        contracted amount.
 Totals Table 4                                           169            $239,187           $9,165         $248,352


           •
 Item #
          Grantee or
            Sub-             Condition               °
                                                    # f         Q      t·
                                                                    ues lone
                                                                             d      1nd"lrect             Total
                                                                                                        Questioned
          Recipient                                Errors            Cost            Cost                 Cost
 204      Jhpiego       Supporting                   1                    $179              $34                $213
                        documents were
                        missing for
                        telecommunication
                        s expense
 Totals Table 5

 Total Unsupported Costs
 (Tables 2, 3, 4, 5)                         ..                           $179


                                                                     $245,566

Criteria: Under Title 22, CFR, subsections 226.21(b)(6)-226.21(b)(7), a grant-
                                                                                        I
                                                                                            $34


                                                                                              '
                                                                                                               $213


                                                                                                           $255,931



recipient's financial management systems should provide written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with
the provisions of the applicable Federal cost pri nciples and the terms and conditions of
the award. A grant-recipient's financial management system should also provide

WILLIAMS ADLEY                                                                                                 21
SCHE DULE OF FINDINGS AND QUESTION ED AMOUNTS
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

accounting records, including cost accounting records that are supported by source
documentation.

Jhpiego’s Finance & Accounting Policy Manual states the following:
Standards for Recorded Transactions
Recorded financial transactions must be complete, valid, accurate, final, and supported
by original source documentation.

Complete
Each payment must be supported by documentation, including:
    An original invoice OR a receipt for the purchase of the allowable item
    A check/petty cash request form, signed by an authorized staff member
    Confirmation from payee that funds were received, such as a signed receipt or
      canceled check
    Paid invoices stamped PAID, with the date the payment was made and the
      number of the check
    A goods-received receipt, or other statement attesting that the goods and/or
      services purchased were in fact delivered

Valid
A payment is valid if it is made to a verifiable vendor for an allowable expense, and if the
documentation exists to show that the goods or services paid for were actually received.

Accurate
The record of a transaction must show the exact value, and be charged against the
appropriate General Ledger (GL) Account and Internal Order (IO) Number.

Final
You may not alter an original transaction in any way.


Cause: Jhpiego did not implement a comprehensive review process. Jhpiego did not
request copies of the source documents prior to or as part of the invoice review process
and before approving sub-recipient billings submitted by its field office for payment.
Instead Jhpiego relied on sub-recipient certifications that expenses were fully
supported. The absence of a robust review process resulted in the payment of sub-
recipient billing statements that were not fully supported and for which Jhpiego did not
retain source documents as required.

Effect: The absence of sufficient and adequate source        documentation that matched
invoices paid resulted in $255,931 in incurred costs that    were not properly supported.
Further, without proper support to justify incurred          costs, the risk of the U.S.
Government being overcharged and opportunities for           waste, fraud, and abuse of
government funds is increased.



WILLIAMS ADLEY                                                                         22
SCHEDULE OF FINDINGS AND QUESTIONED AMOUNTS
            Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


R ecommendation : We recommend that Jhpiego either provide USAID with records
that clearly support the $255,931 in questioned costs presented above that were charged
to USAID or reimburse USAID for those amounts for which adequate support cannot be
provided.


Finding 2012-02: Ineligible Costs (Significant Deficiency and Non-
Compliance)

Condition: We tested randomly selected non-payroll transactions totaling $14,752,724
of incurred costs from a total population of $60,449,801, or 24% of the total costs
incurred July 2006 and October 2012. During our testing of travel, equipment, supplies,
contract costs, and other direct costs, we determined the following exceptions for
eligible costs:

              •                                                                         Total
  Sample            Sub-                             #of     Questioned    Indirect
                                   Condition                                          Questioned
   Item#          recipient                         Errors     Cost          Cost
                                                                                        Cost
 359          ACTO            Bid document, cost      6           $3,767       $228       $3,995
                              analysis, or
                              justification was
                              missing for vehicle
                              rental expense
 11 , 14,     IMC             Increase in vehicle     9         $14,298        $206      $14,504
 15, 20,                      rental fees not
 21, 88                       justified

 257,317      MRCA            Coach rentals           4           $5,403       $534       $5,937
 356, 363                     without competition
 307          NAC             Documents to            1           $1,495         $0       $1,495
                              support cost
                              reasonableness not
                              provided (bid
                              quotes/price
                              analysis)
 14,15, 51,   WVI             Documents to            13          $9,659       $546      $10,205
 88, 96,                      support cost
 97, 342,                     reasonableness not
 360, 365,                    provided (bid
 374                          quotes/price
                              analysis)
 Totals Table 6                                      33          $34,622     $1,514      $36,136




WILLIAMS ADLEY                                                                               23
SCHE DULE OF FINDINGS AND QUESTION ED AMOUNTS
           Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


   bl
 Sample
           •              d                                -
                                                           0

                                                                     •
                                                               Questioned
                                                                               1
                                                                               Indirect
                                                                                              Total
               Sub-                                   #of
                                   Condition                                                Questioned
 Item#       recipient                               Errors      Cost            Cost
                                                                                              Cost
 11          Aga Khan     No prior approval            1             $220             $0          $220
                          for travel
                          Kabui/ Dubai
 343         IMC          International travel         2             $346             $0          $346
                          expenses not prior
                          approved
 257,317     MRCA         No prior approval            6           $7,229             $0         7,229
 338,356                  for payment of
 363                      student incentives
                          ($6,665) or extra
                          trips ($91 );
 Totals Table 7                                        9            $7,795            $0        $7,795


   bl               All       bl    •            d
 Sample           S_u~-            Condition          # of     Questioned      Indirect     Qu:~~~~ed
 Item #      recrprent                               Errors      Cost            Cost          Cost

 11          IMC          Fuel for different           1             $839            $28          $867
                          project paid with
                          HSSP funds
 53          IMC          Fuel costs charged           3             $519             $0          $519
                          although included
                          in lease agreement
 323        SHOP          Both meal expense            2             $521            $98          $619
                          and per-diem were
                          paid for the same
                          individual
 317        MRCA          W ithholding tax not         1                 $89          $0              $89
                          deducted from
                          payment
 Totals Table 8                                        7            $1 ,968         $126        $2,094

 Total Ineligible Costs
 (Tables 6, 7, 8)                                .
                                                 1         .
                                                                   $44,385         $1,640      $46,025

Criteria f or Table 6: Title 22, CFR, section 226-43 requires that all procurements
shall be conducted in a manner to provide, to the maximum extent possible, open and
free competition.

Title 22, CFR, section 226-45 requires that some form of cost or price analysis shall be
made and documented in the procurement files for every procurement action. Price
analysis may be accomplished in various ways, including the comparison of price
quotations submitted, market prices and similar indicia, together with discounts. Cost

WILLIAMS ADLEY                                                                                    24
SCH EDULE OF FINDINGS AND QUESTION ED AMOUNTS
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

analysis is the review and evaluation of each element of cost to determine
reasonableness, allocability, and allowability. Section 226.46 requires procurement
records and files for purchases in excess of the small purchase threshold include the
following at a minimum:
   (a) Basis for contractor selection,
   (b) Justification for lack of competition when competitive bids or offers are not
       obtained, and
   (c) Basis for award cost or price.

Jhpiego’s Finance & Accounting Policy Manual states the following:

Competitive Bidding
In selecting a vendor, we must show that we have:
     Researched the availability and cost of the goods in question
     Sought competitive bids from at least three vendors
     Selected the item which provides the best value (This doesn’t necessarily mean
       the least expensive item available, but we have to show that our choice represents
       the most efficient use of award funds.)

Criteria for Table 7: Per 2 CFR, Part 230, Appendix B and OMB Circular A-122,
Attachment B, paragraph 33, Participant support costs, requires the following:

       "Participant support costs are direct costs for items such as stipends or
       subsistence allowances, travel allowances, and registration fees paid to or on
       behalf of participants or trainees (but not employees) in connection with
       meetings, conferences, symposia, or training projects. These costs are allowable
       with the prior approval of the awarding agency."

Prior approval by USAID for payment of such incentives to students by MRCA was not
provided.

Criteria for Table 8: Under 2 CFR, Part 230, Appendix A.4.a, Allocable costs, a cost
is allocable to a particular cost objective, such as a grant, contract, project, service, or
other activity, in accordance with the relative benefits received.

Jhpiego’s Finance & Accounting Policy Manual states the following:

Standards for Recorded Transactions
Recorded financial transactions must be complete, valid, accurate, final, and supported
by original source documentation.

Valid
A payment is valid if it is made to a verifiable vendor for an allowable expense, and if the
documentation exists to show that the goods or services paid for were actually received.



WILLIAMS ADLEY                                                                         25
SCHEDULE OF FINDINGS AND QUESTIONED AMOUNTS
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

Accurate
The record of a transaction must show the exact value, and be charged against the
appropriate General Ledger (GL) Account and Internal Order (IO) Number.

Cause: Jhpiego and its sub-recipients did not develop sufficient internal controls to
ensure price or cost analysis for each procurement action was maintained in the
procurement files or document the best value was obtained for each procurement
action. Further, Jhpiego and its sub-recipients did not document approvals for
expenditures for items that required prior approvals. Finally, Jhpiego's sub-recipient
review and approval process was insufficient to observe sub-recipient duplicate charges
or incorrect postings to project costs.

Effect: In the absence of sufficient and adequate documentation that all procurements
were done to maximize full and open competition, appropriate officials approved
expenditures when required and that charges were allocable to the award, we could not
determine that the costs charged to USAID were reasonable, that the procurement did
not exclude or otherwise limit competition, and that the costs were eligible for
reimbursement.

We determined questioned costs in the amount $46,025 as a result of the 49 ineligible
incurred cost transactions.

Recommendation: We recommend that Jhpiego provide USAID with records that
clearly support the eligibility of the $46,025 in questioned costs presented above that
were charged to USAID or reimburse USAID for those amounts for which adequate
support cannot be provided.


Finding 2012-03: Funds in Excess of Cash Needs (Non-Compliance)

Condition: Jhpiego uses the Department of Health and Human Services Payment
Management System (DHHS-PMS) to draw down funds for the project from the United
States Treasury on a reimbursement basis through a letter of credit (LOC). In our review
of this process, we noted certain instances in which Jhpiego drew down funds in excess of
its immediate cash needs, which is not permitted under the LOC process. No evidence was
provided of prior approval from the USAID/Washington Deputy Chief Financial Officer to
allow for advances in excess of 30 days, authorization for Jhpiego to retain interest, or
annual remittance to the U.S. Treasury of interest earned on advances.

Criteria: Under the USAID Automated Directive System (ADS), Chapter 636, section
636.3.3.1, Amount Limitations, advances shall be limited to the minimum amount
needed for “immediate disbursing needs” and are paid as close as administratively
feasible to the actual disbursements being made by the recipient organization. For
USAID direct contracts, grants or other procurement and assistance arrangements,
which provide for advance payments in excess of 30 days, prior approval is required
from the USAID/W Deputy Chief Financial Officer before being authorized. Under


WILLIAMS ADLEY                                                                      26
SCHEDULE OF FINDINGS AND QUESTIONED AMOUNTS
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

section 636.3.3.2, funds in excess of immediate disbursement needs shall be refunded to
USAID. The only exceptions are when the excess funds will be disbursed within 7 days
or when the amount is less than $10,000 and it will be disbursed within 30 days. Per
section 636.3.5, unless a recipient is specifically authorized to retain interest, interest
earned on advances from USAID is remitted to the U.S. Treasury at least annually.

Cause: Jhpiego responded that due to the remoteness of locations and unique security
concerns in Afghanistan, it interpreted a 60-day timeframe for advancing funds as close
to the disbursement of funds as administratively feasible as meeting the spirit of the
ADS requirements. As a result, Jhpiego did not institute effective controls to ensure that
its draw down process considered only expenses to meet the 30-day immediate cash
needs requirement as defined in the ADS.

Effect: The United States Treasury incurs an opportunity cost for funds that are drawn
down by recipients in excess of their immediate needs and Jhpiego is in violation of the
administrative requirements. We calculated $10,954 in earned interest as a result of
excess cash drawn down by Jhpiego during the performance period that should be
returned to the United States Treasury (See Attachment B for interest calculation on
excess cash).

Recommendation: We recommend that Jhpiego:
  1. Institute a system to ensure that PMS drawdowns meet the 30-day immediate
     cash needs requirement for future projects funded by a letter of credit.
  2. Return interest earned to the United States Treasury for project funds drawn
     down through the PMS in excess of its immediate cash needs, which we
     calculated as $10,954, or provide evidence that Jhpiego was authorized to retain
     the interest earned or remitted such interest annually as required.




WILLIAMS ADLEY                                                                        27
SCHEDULE OF FINDINGS AND QUESTIONED AMOUNTS
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement


Attachment A – Summary of Prior Audit Findings
Prior audits, assessments or reviews of Jhpiego that we considered applicable to the
scope of our work were obtained and read to ensure that there were no significant
deficiencies or material weaknesses noted. For any significant deficiencies or material
weaknesses affecting the cooperative agreement, we performed test work to ensure
proper correction of any significant deficiencies or material weaknesses that impacted
the project. Jhpiego did not take corrective action on all the identified prior
recommendations that could have a material impact on the Fund Accountability
Statement as indicated in the current status summary for each prior finding discussed
below. Out of a total of 19 prior audit findings, Jhpiego took adequate corrective action
on 14 findings. We summarized 7 of the 19 findings below, which could have a material
impact on the Fund Accountability Statement, and included a status on the remaining 12
findings in a management letter. The 4 significant prior findings presented below
without adequate corrective action related to unsupported costs, monitoring sub-
awards, and inadequate internal audit coverage were repeated as part of significant
deficiencies or material weaknesses that management should address.


A.F. Ferguson & Co. financial audit review of periods April 1, 2005-
December 31, 2006 and July 1, 2006- December 31, 2006

R.1 – Missing supporting documentation; R.2 – Missing training attendance
records

We obtained a prior audit for the period April 1, 2005- December 31, 2006: Clinical and
Community Maternal, Neonatal and Women’s Health Services Program-ACCESS
program; and July 1, 2006- December 31, 2006: Support for Services Delivery and
Quality of Basic Services in Afghanistan-SSP. The audit included the schedule of local
cost incurred and paid in Afghanistan under the aforementioned cooperative
agreements, internal control structure, and Jhpiego’s compliance with agreement terms
and applicable laws. The following findings were noted:

Tests disclosed $11,975 for ACCESS and $13,155 for SSP in questioned costs for the
period April 1, 2005 –December 31, 2006. Trainee travel supporting documentation for
expenses incurred of $23,665 cited as a reportable condition listed under R-1. Amount
of $1,464 cited for purchase orders, supplier invoice and goods receipts as unsupported
condition listed under R-2. Under internal controls the auditor reported: R-1 training
attendance records not maintained; and R-2 supporting documents not available.
Auditor’s report on compliance cites material instance of noncompliance for costs
aggregating to $25,129 was not available and represented as unsupported cost in the
Schedule of Local Costs Incurred and paid in Afghanistan under the cooperative
agreement.




WILLIAMS ADLEY                                                                      28
ATTACHMENT A
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

Current status: We determined that adequate corrective action was not taken to
ensure supporting documentation for local costs incurred per finding R-2 and is
repeated as part of finding 2012-01. We determined that adequate corrective action was
taken to ensure training attendance records were maintained per finding R-1.

After April 2007, a policy was implemented that requires attendance to be documented
through attendance sheets. We tested travel related invoices, attendance sheets for
training, and invoices for proper supporting documentation as part of our disbursement
testing. We noted exceptions under finding 2012-01 where documentation was not
provided or was inadequate to support the related expenditure and included a
recommendation to correct this issue.


Ernst & Young Ford Rhodes Sidat Hyder was contracted by USAID to
perform a program review of the cooperative agreement for the duration of
the program from July 1, 2006 through the review date of July 17-18, 2012.

The review findings are discussed as follows:

2.1 No monitoring function to ensure compliance with USAID guidelines

The auditor commented that as per better practices, a compliance function shall be
established to monitor and ensure compliance with applicable donor rules and
regulations. They were informed by management that the Director Finance and
Administration is assigned the responsibility to ensure such compliance and there is no
separate department to carry out such task.

Management responded that Jhpiego does not have a separate unit at the country office
level to assume a compliance role, as the compliance function is embedded in the Grants
Manager and Finance & Admin Director job descriptions. In addition, an Internal
Control Review may be performed by headquarters on an annual basis to ensure
compliance.

Current status: Jhpiego did not take adequate corrective action to address this issue
and it is repeated as part of the cause for finding 2012-01 and 2012-02. Jhpiego has an
internal control review process were Jhpiego headquarters employees travel to the
countries and perform internal reviews following a program for which they have
responsibility. The reviews include monitoring of sub-recipients in the country. And
they work with the programs to clear findings. Country Directors are held accountable
for repeated findings. We noted external audits were performed on the largest sub-
recipients, but not for the smaller sub-awards. We also tested sub-recipient transactions
in Afghanistan for eligible and supported incurred costs and noted sub-recipient
questioned costs. As a result, we determined that Jhpiego’s internal review process
needs improvement in monitoring for compliance with USAID guidelines.




WILLIAMS ADLEY                                                                      29
ATTACHMENT A
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

3.1 External audit is not carried out for project

An external audit is a review of the financial statements or reports of an entity/projects
by professional accountants not affiliated with the entity. External audits play a major
role in the financial oversight of projects because they are conducted by outside
individuals and therefore provide an unbiased opinion. The auditor was informed by
management that external audit of the company is carried out at head office level. In
this respect the auditor noted that no specific external audit has been carried out for the
HSSP project as per the USAID provided Terms of Reference for external auditors.

Management responded that Jhpiego is an affiliate organization of Johns Hopkins
University (JHU). JHU conducts an A-133 audit annually by KPMG, an external
independent auditor. KPMG’s A-133 audit of JHU is inclusive of Jhpiego.

Current status: Jhpiego did take adequate corrective action to address this issue.
Program was covered under the A-133 audit. We performed a review of the A-133 audits
for every year of the project and noted that the A-133 single audit does comply with the
external audit requirement without exception.

4.7 Printing services were obtained without entering into the contract

As per the discussion with the management, the auditor reported material expenditure
was incurred for printing books. Currently Jhpiego procures these services through RFQ
method. The auditor noted that Noori Printing Press was selected based on the RFQ
method. Since the initial procurement multiple purchase orders were issued to the same
vendor without competitive procurement process. The total value of the procurement
to-date was $156,740.

Management responded that since early January 2012 procurement for printing has
been taken over by the procurement unit, which was handled by the technical unit
previously. Since then the procurement process for printing has been conducted in
transparent and competitive manner.

Current status: Jhpiego took adequate corrective action to address this issue. Jhpiego
claims corrective action has been taken by the development of a procurement unit which
was handled by the technical unit previously. We performed disbursement field work to
include documentation of proper bid procedures as part of the test attributes. We did
not note findings and questioned costs related to printing services.

4.8 Inadequate process for bid advertisement

The auditor reported that advertisements for the RFP were made in HSSP and MoPH
websites. However, the auditor noted that there was no process for advertising the same
in any newspapers.

Management responded that it is Jhpiego country office policy to conduct formal

WILLIAMS ADLEY                                                                        30
ATTACHMENT A
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

solicitation process (advertise bid in newspaper) when procurement value is equal to or
greater than $25,000. However, given newspapers are not widely read or used in
Afghanistan, instead Jhpiego has advertised bids on Afghan.bids.com (a USAID-
supported website) or on ACBAR.org.

Current status: Jhpiego did not take sufficient corrective action to adequately address
this issue as this finding is repeated, in part, under finding 2012-02. Jhpiego claims that
advertising on the newspaper is not a requirement and that that they have used
appropriate and adequate channels for advertising. We tested transactions for proper
bid documentation to support full and open competition. We noted exceptions during
our field work that resulted in questioned costs because evidence of proper competition
to determine cost reasonableness was not provided in all instances, and in particular as
it relates to sub-recipient procurement activities. We included a recommendation in
finding 2012-02 to address this issue.

5.1 Lack of Internal Audit coverage

The auditor reported that internal auditing is an independent, objective, assurance
activity designed to add value and improve an organization's operations. The auditor
was informed by the management that the internal audit function for the project is
executed from the home office. In this respect, the auditor noted the internal audit does
not cover all the processes and is carried out on an ad hoc basis.

Management responded that Jhpiego did not have Internal Audit function at the
country office level. However, Jhpiego’s headquarters conducts internal audits at select
country offices on an annual basis with a broader scope of work -from cash
management, banking policy, assets management, advance, HR, internet, etc. As a
follow-up, country offices are required to develop action plans to implement the audit
recommendations and findings. In the future, if budget permits, Jhpiego will include an
internal audit/compliance staff member in country who will ensure compliance.

Current status: Jhpiego did not take adequate corrective action to address this issue
and that the internal review process needs improvement in monitoring for compliance
with USAID guidelines. This issue is repeated as part of the cause in finding 2012-01.
Jhpiego has an internal control review process where Jhpiego HQ employees travel to
the countries and perform internal reviews following a program for which they have
responsibility. And they work with the programs to clear findings. Country Directors are
held accountable for repeated findings. The reviews include monitoring of sub-
recipients in the country. However, we tested sub-recipient transactions in Afghanistan
for eligible and supported incurred costs and noted sub-recipient questioned costs. As a
result, we included a recommendation in finding 2012-01 to improve the monitoring
process.




WILLIAMS ADLEY                                                                        31
ATTACHMENT A
            Incurred Cost Audit of Jhpiego's Fund Accountability Statement



Attachment B- Interest Calculation on Excess
Cash

                                                                                30 d ays +
 Month-         d       E           Advances       Advance        Net                        Interest     t    t   Interest
  Year     0 raw own     xpenses     (credits)   liquidations   Balance                       Rate..    1n eres     Due


 May-06                    4,875                                    (4 ,875)             0                     0

 Jun-06                   52,249                                   (57,124)              0                     0         0


  Jul-06                                                           (57,124)              0                     0

 Aug-06                                                            (57,124)              0                     0

 Sep-06                                                            (57,124)              0                     0

 Oct-06                                                            (57,124)              0                     0

 Nov-06                                                            (57,124)              0                     0

 Dec-06                 1,173,220                               (1 ,230,343)             0                     0

 Jan-07                   79,659                                (1,310,003)              0                     0

 Feb-07                  673,644                                (1 ,983,647)             0                     0

 Mar-07                   91,803                                {2,075,450)              0                     0

 Apr-07                  104,396                                {2,179,846)              0                     0

 May-07                 1,154,647                               {3,334,493)              0                     0

 Jun-07                 1,114,829                               {4,449,322)              0                     0         0

  Jul-07                 (33,915)                               {4 ,41 5,407)            0                     0

 Aug-07                  145,389                                {4,560,796)              0                     0

 Sep-07                  134,747                                {4 ,695,543)             0                     0

 Oct-07                  923,439                                {5,618,982)              0                     0

 Nov-07                  128,344                                {5,747,326)              0                     0

 Dec-07                  641 ,299                               {6,388,625)              0                     0

 Jan-08      4 59,673    525,268                                {6,454,220)              0                     0

 Feb-08      402,693     693,787                                {6,745,313)              0                     0

 Mar-08      4 63,307    167,878                                {6,449,884)              0                     0

 Apr-08      666,389    1,104,741                               {6,888,236)              0                     0




WILLIAMS ADLEY                                                                                                      32
ATIACHMENT B
            Incurred Cost Audit of Jhpiego's Fund Accountability Statement


 Month·    Drawdown      Expenses    Advan_ces    _A~van_ce       Net        30 days+    Interest     Interest   Interest
  Year                                (cred1ts)   hqu•dat•ons   Balance                   Rate..                  Due


 May-08     7,240,836     353,724                                 (1,123)           0                        0

 Jun-08     1,1 17,881   1,148,808                               (32,050)           0                        0         0

  Jul-08     687,160      120,917                                534,193            0                        0

 Aug-08      134,802      125,469                                543,526      408,724      3.10%        1,056

 Sep-08        83,798      88,183                                539,141      455,343      2.98%        1'131

 Oct-08     1,266,014    1,255,639                               549,516            0                        0

 Nov-08      488,876      524,886                                513,507       24,631      1.93%           40

 Dec-08     1,277,944    1,590,644                               200,807            0                        0

 Jan-09                   947,381                               (746,574)           0                        0

 Feb-09     3,217,213    1,288,709                              1'181 ,930          0                        0

 Mar-09      364,182      387,287                               1,158,826     794,643      1.67%        1,106

 Apr-09      523,368      141,717                               1,540,477    1,017,109     2.20%        1,865

 May-09       {1,613)     327,580                               1,211,283    1,211,283     2.34%        2,362

 Jun-09      656,662     1,390,198                               477,748            0                        0    7,309

  Jul-09     982,467      453,226                               1,006,988      24,522      2.53%           52

 Aug-09      795,082      910,443                                891 ,627      96,545      2.39%          192

 Sep-09     1,251,479    1,322,876                               820,230            0                        0

 Oct-09     1,059,454     987,832                                891 ,852           0                        0

 Nov-09      425,633      542,269                                775,216      349,583      2.31 o/o       673

 Dec-09     1,199,336    1,065,604                               908,948            0                        0

 Jan-10     1,057,531    1,232,828                               733,652            0                        0

 Feb-10     1,034,849     945,725                                822,776            0                        0

 Mar-10      924,556     1,127,008                               620,323            0                        0

 Apr-10      750,413     1,065,240                               305,495            0                        0

 May-10      967,147      421 ,391                               851,252            0                        0

 Jun-10     1,238,524    1,236,971                               852,805            0                        0      667

  Jul-10    1,099,030     994,373                                957,461            0                        0




WILLIAMS ADLEY                                                                                                    33
ATIACHMENT B
            Incurred Cost Audit of Jhpiego's Fund Accountability Statement


 Month·    Drawdown     Expenses     Advan_ces    _A~van_ce       Net       30 days+   Interest     Interest   Interest
  Year                                (cred1ts)   hqu•dat•ons   Balance                 Rate..                  Due


 Aug-10     1,001,993    972,015                                 987,440           0                       0

 Sep-10     1,451,842   1,374,918                               1,064,364          0                       0

 Oct-10     1,105,241   1,139,456                               1,030,149          0                       0

 Nov-10     1,949,412   2,141 ,198                               838,363           0                       0

 Dec-10     1,127,307    938,152                                1,027,518          0                       0

 Jan-11     1,294,436   1,307,925                               1,014,029          0                       0

 Feb-11      376,088     681 ,944                                708,173     332,085     2 .13%         589

 Mar-11     1,354,668   1,091 ,523                               971,319           0                       0

 Apr-11      714,187    1,221 ,216                               464,290           0                       0

 May-11     1,340,377   1,136,561                                668,105           0                       0

 Jun-11     1,568,847   1,226,483                               1,010,469          0                       0      340

  Jul-11    1,404,141   1,472,587                                942,023           0                       0

 Aug-11     1,313,393   1,229,270                               1,026,146          0                       0

 Sep-11      670,421     665,931                                1,030,636    360,215     0 .96%         288

 Oct-11      801,018     824,839                                1,006,815    205,797     0 .99%         170

 Nov-11      859,906     793,952                                1,072,769    212,863     0 .96%         170

 Dec-11      771,927     814,196                                1,030,501    258,574     0 .83%         179

 Jan-12      248,890     615,115                                 664,275     415,386     0 .71o/o       246

 Feb-12      697,563     594,867                                 766,972      69,409     0 .87%          50

 Mar-12     1,285,188   1,222,159                                830,000           0                       0

 Apr-12      687,389     698,898                                 818,491     131,102     0 .67%          73

 May-12     1,080,004   1,199,1 41                               699,354           0                       0

 Jun-12                 1,159,247                               (459,893)          0                       0      926

  Jul-12    1,659,252   1,511,370                               (312,011)          0                       0

 Aug-12     1,881,579    734,758                                 834,811           0                       0

 Sep-12     1,402,032   1,403,257                                833,586           0                       0

 Oct-12      810,479     818,440                                 825,625      15,146     0 .72%            9




WILLIAMS ADLEY                                                                                                  34
ATIACHMENT B
             Incurred Cost Audit of Jhpiego' s Fund Accountability Statement


 Month·     Drawdown     Expenses    Advan_ces    _A~van_ce       Net         30 days+       Interest   Interest   Interest
  Year                                (cred1ts)   hqu•dat•ons   Balance                       Rate..                Due


  Nov-12      594,885     160,692                               1,259,818        664,933       0.61%        338

  Dec-12      337,720     336,238                               1,261,300        923,580       0.72%        554

  Jan-13      (49,147)     10,387                               1,201,766      1,201,766       0 .88%       881

  Feb-13     (876,390)    293,875                                  31,500         31,500       0.77%         20

  Mar-13       {1,507)     (1,507)                                 31,500         31,500       0.77%         20

  Apr-13      (31,500)                                                    0              0     0.68%           0

 May-13                                                                   0              0     1.05%           0

  J un-13     (97,932)   (216,526)                                11 8,594       11 8,594      1.41 %       139     1,712


  J ul-13    (118,594)                                                    0              0     1.38%           0

 Aug-13                                                                   0              0     1.62%           0

 Sep-13                                                                   0              0     1.39%           0         0
                                                                              Total
                                                                              Interest                  $12,204

                                                                                  Net Interest Due           $10.954

•• Interest rates obtained from Treasury yield curve for 5 year maturity on the last day of the month at
(http://'-N'N'N.ustreas.gov/offices/domestic-fi nance/debt-management/interest-rate/yield_historical_main.shtml]




WILLIAMS ADLEY                                                                                                      35
ATIACHMENT B
            Incurred Cost Audit of Jhpiego’s Fund Accountability Statement


Attachment C – Management Response to Audit
Findings


    «-' Jhpiego
    •n affih•te ol johns Hopkins Unrtei"Sit)'   1615 Thames Stteet
                                                Ballimore, MO 2.1231-3492
                                                tel: 410.537 1800 fax; 410.537.1474




              January 28, 2014



              Cordell Olive
              Director
              Williams, Adley & Company, LLP
              1030 15th Street, NW
              Suite 350 West
              Washington, DC 20005

              Dear Cordell,

              Jhpiego is pleased to submit its management response to the Audit of the USAID funded
              Cooperative Agreement #306-A-oo-o6-00523-00 initiated by the Special Inspector
              G<:neral for Afghanistan Reconstruction (SIGAR) through the Williams Ad1ey. Jhpiego
              understands Williams Adley will incorporate our management response in Attachment
              C to the draft audit report dated J an 15, 20 14.

              1.    Scope of the Audit

               Williams Ad1ey and Company- DC, LLP (VI1Jlliams Adley) was engaged by the office of the
               Specia) lnspector General for Afghanistan Reconstruction (SIGAR) to conduct a fmancia1
               audit of Jhpiego for the USAID-funded Health Services Support Program (IISSP) Associate
               Award #306-A-00-00523-00. The objective of the HSSP award was to bring essential
               maternaJ and neonata1 health services and interventions to Afghanistan families in 14
               provinces. To achieve this objective, Jbpiego engaged, with USAID's knowledge and
               approval, thirteen (13) international and loca1 organizations through subgrants.
               The scope of this audit included W illiams Adley, through RBCO, their affiliate firm
               based in Afghrulli;tan, and a detailed financia1 audit of tbe thirteen (13) ,Jhpiego
               Subrecipients who received funding under this Associate A\';ard (Table 1: List of
               Subrecipients and Amount of Funds Obligated).




                                                                      innovating to save lives   I ..
                                                                                                 www.Jhp1ego.o rg



WILLIAMS ADLEY                                                                                                      36
ATTACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




         Sub-Rec1p1ent                        Sub-Award Name             Total Obllgahon
         1 Aga Khan Foundation                IHS Kabul                  $3,500,708
        1--
         2. International Medical Corps       CME Khost                  $1,886,415
         3    Merlin                          CME Takhar                 51.473,700
         4    World Vision Inc.               IHS Herat                  52,545,652
         5.   Ibn Sina                        CME Paktya                 $1,231,640
         6 . Save the Chlldren                CME Jawzjan                $1,2.81 ,054

         7    Norwegian Afghanistan           CME Wardak                 $527,524
              Committee
         8    HealthNet TPO                   CME Noori!:itan!Nangahar   $256,499 92
         9    Medical Refresher Courses       CME Logar                  $248,400.05
              for Afghans
         10 Social and Health                 Badakhshan                 $49,927
              Development Program
         11 Agency for Assistance and         Bamyan                     $92,371
              Development of Afghanistan
         12. Solidarity for Afghan Famil.es   Jawz}an                    $49,456.20
         13. Afghan Midwives Association      Organizational capacity    $384,514
                                              building
        -Total                                                           $13.000 286


        2.    Methodology
        The Schedule of Findings and Questioned Amounts on page 4 in the Independent
        Auditor's Report on Compliance states that Williams Adley randomly se1ected 2.33
        transactions for testing that totaled $14,752, 724 of costs incurred. In August 2013,
        Jbpicgo informed Williams Adley that costs incurred from the 13 subgrantees were
        consolidated in JHU's accounting system at the line item level rather than at the
        transactional level. Therefore, the 233 transactions selected for testing were actually
        more than 150,000 transactions. Because Williams Adley's testing methodology was
        based on testing of o\·er $1.411, Jhpiego was required to submit to Williams Adley, and
        their affiliate firm in Afghanistan, over 150,000 r()ceipts within a six-week period.

        Under standard audit procedures and practices, audits are conducted with the auditors
        on-site for the entire review and testing period Being on-site allow-s the auditor and
        auditce to immediately and rapidly engage in discussions when issues and questions
        arise in order to avoid misunderstanding and achieYe necessary clarity. For the vast
        portion of the review and testing period, however, ,Jhpiego was required to engage 'tvith
        Williams Adley remotely, although a small audit team did visit Jhpiego for a total of five
        days.




WILLIAMS ADLEY                                                                                       37
ATTACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




        3. Summary of Results
        Th e results of the audit disclosed a total of $313,547 in questioned costs for all I4
        organizations audited. The amount of questioned costs pertaining to costs incurred by
        .Thpiego is only $13.414 or less than 0.2% of the total awarded amount of $62M.

        The questioned costs pertaining to the 13 subgrantees is $248,352, of which almost so%
        pertains to only one subgrantee, Merlin.

        Jhpiego is of the opinion that, even with the questioned costs for Merlin, the results of
        this audit are more than very reasonable, considering that the work was being
        performed during an active war in Afghanistan, which may have hindered tbe
        subgrantees from fully complying with all of USAJO's terms and conditions pertaining to
        competing goods and services.

        Management Response to Questioned Costs
        1. Finding 2012~01: Unsupported Disbursements~ $255,931

           a. Table 2: QuBStioned Qostt; Relat ed to Travel- Jbpiego
              Jhpiego accepts that during the audit we were not able to locate supporting
               documents for eight transactions related to travel totaling $6,975.

           b. Iahle 3: Questioned Costs Re]ated to Supplies
              Jhpiego acoepts that during the audit we were not able to locate supporting
              documents for one transaction related to the procurement totaling $391.

           c. Table4: Questioned Costs Related to Contracts
               c.l    ACfD Item ~359- The query sheet dated January 7, 2014, from RBCO
                      through Williams Adley states under the Evaluation of Management
                      Response column that ACTD provided the rental vehicle contract and the
                      contract was accepted by the RBCO. TheNfore. $'3.727 should be removed
                      as a questioned cost.
               c.2    ACTD It em ~'359 - The finding states that the employment contracts of
                      surveyors 1A'-as not provided. RBCO's query sheet does not sh ow any
                      questioned costs pertaining to salary expenses because ACfD provided the
                      attendance sheets which were accepted by RBCO as sufficient
                      documentation. Therefore. $1.9'?8 should be removed as (]Uestioned
                      costs.
               c.3    Aga Khan - Aga Khan accepts that documentation for computer
                      equipment, food supplies/printing, and generator parts totaling $1,72.3
                      was not available because the docu ments v·.-ere misplaced.
               c.4    HNTPO - Expense reports to substantiate the costs incurred of $4,924
                      were provided t o the auditors. The costs arc being questioned because the
                      auditors cou1d not verify who signed the expense reports. HNTPO stamps




WILLIAMS ADLEY                                                                                      38
ATTACHMENT C
        Incurred Cost Audit of Jhpiego's Fund Accountability Statement




               payment vouchers but they did not stamp the accompanying receipts.
               Additionally, HNTPO did not '~Tite the names of their staff on supporting
               documentation because staff are familiar with the signature of the
               authorizing officials. HNTPO bas strengthened their internal control
               procedures based on the audit finding. HNTPO provided to the auditors all
               the supporting documentation and required info1·mation to demonstrate
               that the cost was allowable with appropriate internal approvals. Therefore.
               SiJ..9Jl....4 should be removed as a cmestioncd cost.
         c.s   IbnSina - Ibn Sina did not provide additional documentation or a v.rritten
               management response to Jhpicgo.
         c.6   IMC - The query sbeet dated January 7, 2014. from RBCO through
               Williams Adley st."ltes w1der the Evaluation of Management Response that
               only $941 "\>\'aS unsupported costs because the building rental agreement
               '\'I'US not provided to the auditors (item #3 on RBCO's query sheet), and a
                total of S519 (items #115, #n6, and #117 on RBCO's query sheet) as
               questioned costs because the vehicle rental agreements did not match the
                quotes. The amount of $8.439 reflected in tlte audit report needs to be
                revised to r·eflect the exact final amourzJ of questioned cost'> of $1.460
                reflected on the final worksheet trom RBCO.

               Additionally, RBCO's worksheets show questioned costs of $2.,500 for
               supplier invoic-es that could not be located RBCO's query sheets show only
               $1,378 of questioned costs due to invoices not being provided to the
               auditors. Refer to items #16, #17, #22, #142, and 1144 on RBCO's query
               sheet. The amount of $2,soo r·etlected in the audit report nee.ds to be
               revised to reflect the e.xact final amount of questioned CQSts qf $r.'Jz8
               roflected ora the final quem sbeet (rnm RBCO.
               Questioned costs of $8J01 should be remoued based on RBCO's quecy
               sh.&
         c.7   Merlin- The p1imary issue pertaining to the $121,116 of questioned costs
               is that Merlin did not have a voucher process in place during the ea•·ly
               phase of the HSSP project. The auditors are questioning costs of $101,614
               due to Merlin not having signed payment vouchers indicating that
               payments were authorized by appropriate officials. Payments made by the
               cashier were reviewed, verified, and approved by Merlin's CME Takhar
               project manager at the end of every month. A sample ledger indicating the
               payment review and approval process is located under the Merlin tab to
               this audit report. 11tere.fore. $101.614 should be removed as questioned
               costs.
               The second issue pertains to salary payments made to              Merlin
               did not maintain pay slips to support the salary payments. In lieu of pay
               slips, Merlin provided unsigned employment contracts, hank slips, and




WILLIAMS ADLEY                                                                               39
ATIACHMENT C
        Incurred Cost Audit of Jhpiego's Fund Accountability Statement




               timesheets to demonstrate that -             was an official employee of
               Merlin.
         e.8   Norwegian Afghanistan Community (NAC) -
               The item numbers refet·enced are from RBCO's query sheet:

               Query No. 02.- Invoice/Item tt 2.23 -Vouchers No.o and 60
               The total amount of $2,774.95 comprises the oost of two differen t
               rental cars plus 15% indirect costs as per agreement.
               -        was contracted for the CME Maidan Shahar, Maidan-Wardak
               Province Lo tran sport the CME students from the CME (school and
               hostel) and tv.·o clinical sites in Maidan- Wardak as well as to Kabul for
               trainings and meetings when required. The payment vouchers with all
               the supporting documents (e.g., invoices and receipts) have been
                provided to the auditors in Afghanistan and the scanned copies of the
                contracts along \vith the quotations are provided to the US Auditor as
                well. If there is any remaining confusion, this seems to be a result of a
                lack of communication and/or coordination between the auditor in
                Afghanistan and the United States.

               The expenses paid out to                              were part of a
               temporary t ransportation arrangement for CME staff while waiting
               for a rent-a-car to be contracted. A safe taxi was chosen and a
               negotiated, lower-than-standard rate of AFS Soo per day for pick-and-
               drop was paid ($15 per day for 100 ldlometers is extremely reasonable).
               As soon as a rent-a-car was selected after due consideration and a
               contractual process implemented, this temporary arrangement was
               discontinued. The receipt along with its period covered by this
               temporary arrangement has been acknowledged by the recipient in
               the documents provided to both the Afghanistan and US auditors.

               Querv No. 03- In voice /Item# 3 o 7 - Vouchers No. 4 and s
               The contract with             at the value of $1,000, has already been
               provided along with the quota tions to the Afghan and US auditors.
               This cont ract was for transportation in and around Maidan-Shahar.

               The contract with                           at the value of $1,300, has
               been provided to the                             ; this contract was for
               transportation between Kabul and Maidan-Shahar. The amowlt for
               this contract is higher than the contract with               due to the
               difference u1. distance driven per day (overland travel between t wo
               provinces). As Ire security situation on the road between Kabul and
               Maidan-Shahar 'o\l!lS volat ile, with multiple attacks every month, a
               tender was not published. A single source procurement was made after
               a thorough investigation of the standard 1-ates for transportation
               between Kabul and Maidan-shahar, and secmity and price "'ere 1x>th
               considered. This is common practice when providing safe and secure




WILLIAMS ADLEY                                                                              40
ATIACHMENT C
        Incurred Cost Audit of Jhpiego's Fund Accountability Statement




                transportation for wometl in Afghanistan (one should remember that
                the CME in Wardak has been victim of n.-.ro bomb attacks over the past
                16 months). We trust that the donors agree with our concern for the
                safety and se<."'.U'ity of the trainers and approve of our decision in this
                regard.


                Both contracts with t:vv-o altered amounts in the name
                of - - have already been provided along with qucttati,ons
                reason why an extra amount of AFS s,ooo had been paid over the
                agreed contracted amount due to a sharp increase of fuel prices. 'Ibis is
                why the contract amount fur the second contract is AFS 5,000 higher
                than the first contract (all due to the increase in fuel prices).

                Query# os - Inyoice/Jtem# 267 - Youcber No.ll
                The total amount $5,425.04 consists of two separate payments.
                1)                         (ref. Query No. 2), already provided with
                   the contract copy and quotations, hereby paid against ear rental in
                   December 2010 and January to February 2011, with the total
                   amount of $3,000.
                2) The remaining amount of $2A25.04 is the equivalent of AFS no,ooo
                   paid on Voucher# 020 against a rental car for the months of
                   ~February 2011to
                   - -was contracted for AFS 2 ,200 per day for a Flying
                   Coach (seatinil: 12 to 14 people). According to our sub -contractor,
                   the original copy of this contract was kept in our CME Maidao-
                   Shahar office and lost during the bomb ex-plosion on 23 November
                   2012, which completely destroyed the building housing the CME
                   office, school, and hostel. This and a number of other documents
                   were lost during tlris incident. The fact that the contract was kept in
                   CME was confirmed by our Course Coordinator.

                 Query N o.o6 - Invo jcelltem # 242 -Voucher No. 12.
                 With regard to payment of food costs for CME trainees and trainers
                 visiting two hospitals for practical training, the required documents
                 for the mentioned payment have been provided twice; the last time
                 was on 19 December 2013, when the NAC p rovided these documents to
                 Jhpiego as per auditors' t·equest. These documents refer to the contract
                 between the hospital and the NACfor reimbursing the hospital for food
                 costs for the trainers and trainees when tbey were hmching at the
                 hospital. This is documented by the trainees' attendance records,
                 wbich have also been made available to Jhpiego.

                 Ouerjes No. 11 and 12 - Invoice/Items No. 38und 223
                 Actually, these payments are against food items purchased during the
                 day by the cook. The consumption was recorded by the cook in the




WILLIAMS ADLEY                                                                                41
ATIACHMENT C
        Incurred Cost Audit of Jhpiego's Fund Accountability Statement




                kitchen book, from which the Finance Officer made a monthly
                summary. 111is summary was approved by the Course Coordinator. All
                of these documents have been provided to your Afghan and US
                auditors.
                Based on the above management resp011S1Land documentation provided
                to the auditors. $16.422 should be removed as questioned costs.
        C.9  SHOP
             The auditors are questioning costs related to 10% of -                 time
             charged to PPH (Post-Partum Hemorrhage) but not supported by a
             t:imcsheet. PPH is one activity under the broad HSSP award and,
             therefore, the timesheet is at the award or grant level and not the activity
             level. Tbere was no separate timesheet maintained for PPH because it was
             an integral component of the HSSP award. Thern,fore. questioned costs of
             $4.6ozshoul<l be removed.
        C.IO MRCA
             MRCA did not provide a management response to Jhpiego for the
             questioned oosts
        C.n SAP
             The questioned cost of $9,121 pertains to vehicle rental quotations not
             being supported with adequate documentation. SAF provided the original
             vehicle agreement to the auditors. SAF agrees that the quotations were
             missing dates; however, SAP provided the bid analysis summary, which
             showed the date the bids were received. Additionally, the auditors raise
              concern that the quotations ""'ere on SAF letterhead rather than the
             letterhead of the vendors. Per SAF policies and procedures, ·when vendors
              do not have their own quotation fonns or letterhead. SAF requests vendors
              to use SAF quotation forms. lt is important to highlight that the work
              under HSSP w-as being implemented in Afghanistan during wartime and
              many businesses and suppliers were newly created when the economy
              opened up. Therefore, some suppliers may not have had all of the
              traditional types of business-related forms, such as quotation forms.

                SAF provided to the auditors the original tender, bid analysis, and vehicle
                tax documents to demonstrate that proper procurement procedures were
                followed and the appropriate tax with holdings per Afghanistan income tax
                law were followed. Based on the documentation SAF provided to the
                auditors, Jhpiego believes the questioned costs Q( $9.121 should be
                removed.
         c.12   SC-US
                Auditors determined $10,259 as questioned costs because confi.rmations
                of rent payments were inconsistent '~\lith the documentation and the
                auditors could not verify the costs paid. The contract was provided and
                accepted by RBCO and a six-month rent has been paid in for the period of
                July through December 2.006; it is recorded as prepayment and is
                alDOttized and charged as rent upon completion of the month.




WILLIAMS ADLEY                                                                                42
ATIACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




                  Additiona1ly. the petty cash payment voucher reflects the signature of the
                  landlord at the receipt part. In addition to this, the receipt
                  acknowledgment has been attached to the voucher, but there is a typing
                  error in the date on the receipt acknowledgment. Based on the
                  documentation provjded. the questioned costs of $10.259 should be
                  removed.


                  Auditors determined $10,343 to be questioned costs because timesheets to
                  support level of effort charged were not provided and invoices/receipts for
                  food expenses were not provided . The actual amount of questioned costs
                  per RBCO's query sheets pertaining to level of effort and receipts for food
                  is $9.911.43·

                  Save provided the auditors the payment voucher for the salary along with
                  the payroll to substantiate salary payments. Save accepts that pay slips
                  were misplaced due to many audits and movement of offices from one
                  location to another. However, the payroll information provided to the
                  auditors should be sufficient to substantiate that the payroll costs were
                  allowable. Therefore. $4.fl24 should be removed qs questioned costs.

                  With regard to c,qst of food for CME students, food was purchased from
                  shops in the remote areas of the country. The shopkeepers are illiterate
                  and did not provide invoices during the years 2006- 2008, the early years
                  of the HSSP award. The types of items purchased from the food shops
                  were potatoes, onions, vegetables, and meat for the students. Save
                  provided confirmation from the cooks' and students' attendance records
                  and signatures as supporting documentation to justify the procurement.
                  With the understanding and acknowledgment of the war in Afghanistan
                  and the gro""ing infrastructure, or lack thereof, it is common that vendors
                  in remote areas in Afghanistan were not as business-savvy as one would
                  expect. Jhpiego determined the costs of the food to be reasonable in our
                  review and approval of Save's invoices to Jhpiego. Thel'f(Ore. $4.9Rz
                  should be removed as QHestioned cost<;.
           C.13   WVI
                  JournaJ voucher to substainte the questioned costs can be found on
                  Attachment 1. Therefore. questioned costs Q,(# ']..R45 should be removed.
        d. Tab1e s: Questioned Costs Related to Other Direct Costs
           Jhpiego accepts that supporting documentation for telecommunication expenses
           totaling $2t3 could not be located.

        e. Finding 2012-02: Ineligible Costs-




WILLIAMS ADLEY                                                                                  43
ATTACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




               Table 6 - Williams Adley classified $36,136 us ineligible costs because
               documents to support cost reasonableness for vehicle rentals were not provided.
               As stated under Title 2.2 CFR Section 225.45, price analysis may be accomplished
               in various ways, including comparison of price q uotation submitted, market
               prices, and similar indicia.
               The vehicle rental costs per transa<.1ion for each of the b:ansactions classified as
               ineligible due to non""'Competitive bids are less than $ 1,000. The HSSP activities
               wer~ implemented throughout Afghanistan in remot e areas where only one rental
               vehicle company was operating. Additionally, security was of u.t most concern for
               staff traveling outside K.abuJ so Jhpiego and the subredpients used vehicle rental
               companies that we trusted.
               Jhpiego did perform a price analysis to determine reasonableness of costs in our
               review and appl'oval of the invoi<.-es submitted to ,Jhpicgo by the subgrantees.
               Jhpiego reviewed the subs' justification and to confirm that this cost charged to
               the HSSP award for vehicle rentals was reasonable. Jhpiego's HSSP Grant Officer
               confirmed the oost of rental vehicles with the HSSP Provincial Coordinators
               who were based in the provinces wher·e the activities were being implemented
               (see list of provinces where provincial coordinator were based). As stated.
               ensuring the safety of HSSP staff took clear priority oYer the strict competitive
               bidding requirement, given that Afghanistan was a war zone and the vehicle
               rental costs t\'ere minimal, at less than $1,000 per transaction. J hpiego bas HSSP
               Provincial Coordinators based in the following provinces:
               Provinces "Where HSSP Had Provincial Coordinators
               1-   Ja\\rz.jan

               2-   Badakhshan

               3- Barnyan

               4- Ningarhar

               s-   Khost

               6- Paktia

               7- Pakitka

               8- Ulghman

               Additionally, J hpiego determined the reasonableness of the vehicle rental oosts
               by calling other agencies to confirm the cost on average. For these reasons .
               •Thpiego believes the ineligible costs oj$36.136 should be remgvgd as a finding .




WILLIAMS ADLEY                                                                                        44
ATTACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




               Table 7 - Questioned Costs Due to Missing 'P:rior Approval
               1.   Aga Khan - Jhpiego previously provided Williams Adley language from OMB
                    Circular A-1221 which allows overtime for administrative staff without
                    obtaining prior approval. Acmrding to OMB A-12.2, Overtime, extt"a-pay shift,
                    and multi-shift premiums, prem.iUIIlS for ·o vertime, extra-pay shifts, and
                    multi-shift work are allowable only with the prior approval of the awarding
                    agency except when employees are peJforming indirect functions, such as
                    administration, maintenance. or accounting.
                    Drivers fall under the categOl1' of performing indirect functions aud therefore
                    overtime is allowable "'i.thout prior approval from the awarding agency.
                    Williams Adley states that they were not able to determine if the overtime
                    paid was for administrat ive personnel. The results of the audit did not
                    disclose that Aga Khan paid overtime to any employee wbo was not
                    considered as administrative personnel. ~637 of ineligible costs should be
                    removed.
               2.   MRCA - During the annual worl'])lan process, MRCA pr'Ovided detailed
                    budgets with budget notes (refer to MRCA tab) to Jhpiego that specifically
                    stated incentives would be paid to students to return home to their families.
                    Jbpiego's approval of MCRA's budget and budget notes constitutes prior
                    approval per the terms of the award. USAID's approval of the annual
                    workplan and budgets constitutes prior approval, although the aw·c:~.rding
                    agency in this case is Jhpiego, since the agreement was between .Jhpiego and
                    MRCA. The $7,229 Q(guestioned costs should be removed.

               Table 8 - Non-Allocable Questioned Costs
               The amount of the non-allocable questioned costs of $2.094 is too small for
               Jhpiego to research, givt::n the strict timeline to provide management comments
               by January 29.
               Finding2013-03: Funds in F..xeess of Cash Needs
               JhpjegQ.SlCcepts this finding.
               Responses to the Summary of Questioned Costs are organized by each of the 14
               organizations audited as follows :

       Management Response to Prior Audit Findings
       a. A.F. Ferguson and Co.
          The auditors determined that adequate corrective action was not taken to ensure
          that supporting documentation for local costs inCUITed is available. The results of
          this audit by Williams Adley, which covered a six~year period dating back to 2006,




WILLIAMS ADLEY                                                                                        45
ATTACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




          show that of a $62M award across 14 international and local organizations, $25sk of
          costs Oess than 1% of total expenses incurred) are questioned due to supporting
          documentation either not being available or the documentation being determined by
          the auditms to be inadequate to suppott the expense incurred. Having less than 1%
          of costs im:urred determined as questioned costs demonstrates Jhpiego has taken
          corrective action to ensure that supporting documentation is maintained per USAJD
          requirements.

       b. Ernst and Young Ford Rhodes Sidat Hyder
          1.   No monitoring function to ensure compliance with USAID guidelines
               Williams Adley determined that Jhpiego's internal review process needs
               improvement in monitoring for compliance with USAID guiCelines. Due to
               security issues and restrictions on travel, Jhpiego electively contracted external
               audits of the HSSP award in lieu of conducting internal compliance reviews. The
               compliance and program reviews are an integral part of Jhpiego's compliance
               monitoring function.

               Since 2010, Jhpiego has been performing enhanced annual compliance reviews,
               which include performing site "isits to subrecipients, to ensure that expenses
               incurred are in compliance with USATD and other donor rules and regulations. In
               2012, Jhpiego developed and implemented a compliance database to closely
               monitor recommendations and follow-up actions resulting from our internal
               cornp1iance reviews.

               Beginning in 2013, Jhpiego also implemented Program and Technical Reviews
               for field offices to ensure that Jhpiego is in compliance with USAID's program
               and technical guidelines.
          2.   External audit is not carried out for project
               No additional comments required because Williams Adley determined that
               adequate corrective actions to address the A-133 external audit requirement \vere
               taken.
          3. Printing services were obtained without entering into a contract
               No additional comments required because Williams Adley determined that
               adequate corrective actions to address this finding were t.1ken.
          4· Inadequate process for bid advertisement
             Jhpiego closely follows JHU's and USAID's procurement policies and procedures.
               Jhpiego recently developed a procurement manual tl1at clearly specifies dollar
               thresholds for procurements requiring advertising in the newspaper. These
               guidelines were not in place during the HSSP award, but are now part of
               Jhpiego's written policies and procedures.




WILLIAMS ADLEY                                                                                      46
ATTACHMENT C
        Incurred Cost Audit of Jhpiego’s Fund Accountability Statement




        5· Lack of internal audit ooverage
           Jhpiego does not have an internal audit department because auditing is part of
           the services the Johns Hopkins University provides to Jhpiego, and the audit
           costs are included in JHtrs Facilities and Administrative rate charged to all
           sponsored awards. As stated under point b.l., Jhpiego h as a compliance function
           that closely revic·ws and monitors activities and expenses incurred for aU donors.
           Additionally, Jbpiego contracts with external auditing firms to perform audits of
           our country offices when needed.




          rt!hfft
           Chief Operating Officer




WILLIAMS ADLEY                                                                                  47
ATTACHMENT C
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement


Attachment D – Auditor Response to
Management Comments
Williams Adley, in consideration of the views presented by Jhpiego management,
presents the following rebuttal and clarification to certain matters presented by the
auditee. The responses below are intended to clarify factual errors and provide context,
where appropriate, to assist users of the report in their evaluation of the findings and
recommendations included in this report. In those instances where management’s
response did not provide new information and support to modify the facts and
circumstances of the report findings, we have not provided a rebuttal or clarification.


Finding 2012-01
1.c.1 – Jhpiego management stated that because RBCO commented on its query sheet
that the ACTD vehicle rental contract was received and accepted by RBCO, the
questioned cost of $3,727 should be removed. However, RBCO’s final comments on this
matter are that 2 expenses were booked prior to the signed contract date, which made
the expenses unsupported. Further, quotations, comparative bid documents or similar
documents to support the procurement were not provided. As such, the questioned cost
remains as stated.
1.c.2 – Jhpiego management stated that because RBCO’s query sheet does not show any
questioned costs pertaining to ACTD salary expenses, the $1,938 in questioned cost
should be removed. However, RBCO commented that the reason for the unsupported
cost for the surveyors was the absence of employment contracts, activity reports or
terms of reference to support payments made for services rendered. As such, the
questioned cost remains as stated.
1.c.4 – Jhpiego management stated that HNTPO provided to the auditors all the
supporting documentation and required information to demonstrate that the $4,924 in
cost was allowable with appropriate internal approvals. The auditor could not
independently verify that the signatures belonged to HNTPO authorizing officials and
no stamp was affixed to indicate HNTPO official approval in lieu of invoices. As such,
the questioned cost remains as stated.
1.c.6 – Jhpiego management commented that the RBCO query worksheet reflected
questioned costs in the amount of $1,460 for items 3, 115, 116 and 117 under the IMC
tab. As a result, management believes that the $8,439 in questioned costs should be
revised to reflect the smaller amount. Also, according to management items 16, 17, 22,
142 and 144 on the RBCO query sheet for IMC reflect $1,378 in questioned costs and not
the $2,500 reported in the finding. The auditor reviewed the RBCO query sheet for IMC
and compared it with the questioned costs per the Audit Report. No discrepancies were
found between amounts listed in the two documents. As a result, the questioned cost



WILLIAMS ADLEY                                                                     48
ATTACHMENT C
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

remains as stated.
1.c.7 – Jhpiego management commented that payments made by the MERLIN cashier
were reviewed, verified and approved by MERLIN’s project manager at the end of every
month. Management believes that for this reason, the $101,614 in questioned costs for
missing, signed payment vouchers should be removed. As per comments made by
MERLIN on the RBCO query sheets, vouchers were prepared, reviewed and approved
on the MERLIN computer system. However, MERLIN was unable to extract the
vouchers from the system to provide to the auditor for review. As a result, the costs
remain as unsupported.
1.c.8 – Jhpiego management requested that $16,422 in questioned costs for NAC be
removed from the report as additional support was provided for the cost of vehicles
rented by the organization, attendance list for students provided meals, and a monthly
summary of food items purchased. As the totality of support was not provided during
fieldwork, the additional documentation was not reviewed. As a result, the questioned
cost remain as stated.
1.c.9 – Jhpiego management stated that the timesheet for time charged to Post-Partum
Hemorrhage is supported as one activity performed by SHDP under the HSSP award.
The final determination of the validity of management’s statement should be made by
USAID as this response was not provided during the audit fieldwork.
1.c.11 – Jhpiego stated that SAF provided the auditors with the original tender, bid
analysis and vehicle tax documents to demonstrate proper procurement procedures
were followed and the appropriate tax withholdings per Afghanistan income tax law
were followed, and therefore, the $9,121 in questioned costs should be removed.
RBCO’s response is that the quotations were not dated and bid analysis form was not
provided. Also, the cash receipt acknowledgement was inclusive of the withholding tax,
not net of the withholding tax, which was an additional discrepancy in the
documentation. As a result, this questioned cost remains as unsupported.
1.c.12 – As per management’s comments, the date on the receipt acknowledgement,
October 25, 2005, did not match the period for which rent was paid, which was July to
December 2006. The questioned cost of $10,529 remains as stated due to this
discrepancy in documentation.
Jhpiego management stated that the questioned cost for level of effort and food costs
should be $9,911.43 and not $10,343 as per the description in Table 4 for SC-US. The
RBCO query sheet shows the correct amount of questioned costs. The description in
Table 4 was updated to include a questioned cost for unsupported fuel costs in the
amount of $379.39. When combined with the $52 in indirect costs, the total questioned
cost is $10,343, rounded to whole numbers. As a result, the questioned cost remains
unchanged.
1.c.13 - Jhpiego submitted a journal voucher to substantiate the questioned costs of
$3,845 for WVI. However, the documentation provided did not appear to be related to


WILLIAMS ADLEY                                                                   49
ATTACHMENT C
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

the questioned costs. As a result, the questioned costs remain as stated.


Finding 2012-02
e. Table 6 – Jhpiego believes the $36,136 in ineligible costs for vehicle rentals should
   be removed because price analysis under 22 CFR, section 22(6).45, may be
   accomplished in various ways. The HSSP activities were implemented throughout
   Afghanistan in remote areas where only one rental vehicle company was operating,
   and that for security reasons, Jhpiego and its sub-recipients used vehicle rental
   companies that they trusted. Further, management states that Jhpiego did perform
   a price analysis to determine reasonableness of costs during its review and approval
   of the invoices submitted by the sub-grantees. According to Jhpiego, the HSSP
   Grant Officer confirmed the cost of rental vehicles with the HSSP Provincial
   Coordinators who were based in the provinces where the activities were being
   implemented. The auditor understands the explanation provided as part of
   management’s response. However, 22 CFR, section 226.45 requires that some form
   of cost or price analysis shall be made and documented in the procurement files for
   every procurement action. The auditor did not receive documentation to verify that
   the procurement files complied with this requirement during our fieldwork, which
   would have been used to assess cost reasonableness, if provided. As such, the
   questioned costs remain the same.

e. Table 7, item 1 – We agree that the ineligible costs in the amount of $637 for Aga
   Khan should be removed as the overtime was for a position that did not require prior
   approval under the cost principles for non-profit organizations. This amount has
   been adjusted in the report.

e. Table 7, item 2 – Jhpiego asserted that its approval of MRCA’s budget constitutes
   prior approval of the incentives paid to students to return home, and so $7,229 in
   questioned costs should be removed. Management also asserted that the USAID
   approval of Jhpiego’s annual workplan constitutes prior approval, although Jhpiego
   considers itself the awarding agency concerning the agreement it had with MRCA.
   Management’s assertion was provided subsequent to the auditor’s fieldwork. As
   such, the questioned cost remain as stated and final allowability must be determined
   by USAID.


Prior Audit Findings
a. Jhpiego asserted that having less than 1% of costs incurred determined as questioned
   costs demonstrates Jhpiego has taken corrective action to ensure that supporting
   documentation is maintained per USAID requirements. The auditor tested a sample
   of the costs incurred and not the entire population. The testwork results indicate
   that the condition mentioned in the prior audit remains valid.


WILLIAMS ADLEY                                                                     50
ATTACHMENT C
         Incurred Cost Audit of Jhpiego’s Fund Accountability Statement

b.1 Jhpiego management described a program and technical reviews component for
    monitoring its field offices. This program was initiated in 2013, which was after the
    period of performance audited. As such, the auditor did not evaluate the
    effectiveness of this tool in addressing the monitoring deficiencies noted under the
    HSSP relating to sub-recipients. This program should assist in assuring compliance
    with USAID requirements, depending on the thoroughness and timeliness of the
    reviews, and implementation of corrective action as a result thereof.
b.4 Jhpiego management stated that it recently developed a procurement manual that
    clearly specifies dollar thresholds for procurements requiring advertising in the
    newspaper that are now part of Jhpiego’s written policies and procedures.
    Developing a policy manual is the first step in the control process. When combined
    with proper implementation, the policy manual should address the prior audit
    finding in this area.
b.5 Management responded that Jhpiego does not have an internal audit department
    because auditing is part of the services the Johns Hopkins University provides to
    Jhpiego, and that Jhpiego has a compliance function that closely reviews and
    monitors activities and expenses incurred for all donors along with contracts with
    external auditing firms to perform audits of its country offices when needed.
    Internal audits provide the recipient with more timely and detailed examination of
    internal controls and compliance matters that may assist Jhpiego with a more
    accurate assessment of internal control weaknesses, provide greater leverage for
    corrective actions, and result in better project management. Internal audit functions
    also provide skill sets not usually present in program and technical review programs.
    We recommend that Jhpiego work with JHU to institute a more robust internal audit
    function for its projects that are linked to program and technical review results.




WILLIAMS ADLEY                                                                      51
ATTACHMENT C
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
